HHS/OIG, Audit - "Tennessee Home and Community-Based Mental Retardation
Services for July 1, 2002, Through June 30, 2003," (A-04-03-03026)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Tennessee
Home and Community-Based Mental Retardation Services for July 1, 2002, Through
June 30, 2003," (A-04-03-03026)
September 18, 2007
Complete
Text of Report is available in PDF format (829 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the State Medicaid
agency claimed Federal reimbursement for home and community-based services (HCBS)
that were adequately supported in the providers records and provided in
accordance with the beneficiaries approved plans of care.  Based on our sample
results, we estimate that during State fiscal year 2003, the State Medicaid
agency claimed approximately $11 million ($7 million Federal share) for HCBS
that were not supported by provider records.  The Federal reimbursement for
these unallowable claims occurred because the State Medicaid agency did not
ensure that HCBS costs were allowable.
We recommended that the State Medicaid agency (1) refund to the Centers for
Medicare & Medicaid Services the $7 million estimated excess Federal
reimbursement for State fiscal year 2003; (2) direct the Division of Mental
Retardation Services to establish controls and procedures to account for changes
in the actual level of services provided, ensure that claims are adequately
supported, and ensure that HCBS are rendered in accordance with the
beneficiarys plan of care; and (3) review its claims filed after our audit
period and refund any overpayments identified.  The State Medicaid agency did
not specifically address our first recommendation.  With respect to the second
and third recommendations, the State Medicaid agency acknowledged that
additional oversight and controls were needed and said that it had increased its
monitoring efforts.